VISA® CREDIT DISCLOSURES
Interest Rates and Interest Charges

Visa® Classic, Visa® Gold & Visa® Platinum

16.25% to 21.74%

Annual Percentage Rate (APR) for Purchases

based on your creditworthiness when you open your account.
After that, your APR will vary with the market based on the Prime Rate.

16.25% to 21.74%

APR for Balance Transfers

based on your creditworthiness when you open your account.
After that, your APR will vary with the market based on the Prime Rate.

21.75% to 27.25%

APR for Cash Advances

based on your creditworthiness when you open your account.
After that, your APR will vary with the market based on the Prime Rate.
29.99%
This APR is a fixed rate and may be applied to new transactions on your account if you:
1) Become 60 days or more past due

Penalty APR and When it Applies

2) Make a payment that is returned
3) Exceed the credit limit of your account
4) Perform any of the aforementioned on another account that you have with us
How Long will the Penalty APR Apply? If your APRs are increased for any of these
reasons, the Penalty APR may apply indefinitely.
Your due date is at least 25 days after the close of each billing cycle. We will not charge
you any interest on purchases if you pay your entire balance by the due date each month.

Paying Interest

The Interest Charge on Cash Advances begins from the date you obtained the Cash Advance.
The Interest Charge on Balance Transfers begins from the date the transaction is posted to
your account.

Minimum Interest Charge
For Credit Card Tips from the Consumer Financial
Protection Bureau

If you are charged interest, the charge will be no less than $1.50.
To learn more about factors to consider when applying for or using a credit
card, visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

Fees

Visa® Classic, Visa® Gold & Visa® Platinum
None

Annual Fee
Transaction Fees
· Balance Transfers

3.00 % of the amount transferred (minimum of $10.00)

· Cash Advances

5.00% of the amount advanced (minimum of $10.00)

· Foreign Transactions

Up to 3.00% of each transaction in U.S. Dollars

· Over-the-Credit-Limit

None

Penalty Fees
· Late Payment

Up to $39.00

· Returned Payment

Up to $39.00

· Pay by Phone

1) No charge for automated payments
2) $5.00 if assisted by a live representative

Other Fees

Prime Rate: Variable APRs are based on the Prime Rate published in the Wall Street Journal on the 25th day of the prior month.
Loss of Introductory APR: We may end your Introductory APR and apply the Penalty APR if you become more than 5 days late in paying your bill.
How We Will Calculate Your Balance: We use a method called "average daily balance" (including new purchases). An explanation of this
method is provided in your account agreement.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your Card Agreement. All content is
accurate as of January 2017. For changes made after printing, please call 1.877.308.1629 or write us at P.O. Box 909, Eastman, GA 31023.
Authorization: When you apply for this credit card offer from Bank of Eastman/Magnolia State Bank, you agree to the following:
1. You authorize us to obtain credit bureau reports that we will use when considering your application for credit. You also authorize
us to obtain credit bureau reports and any other information about you in connection with 1) extensions of credit on your account; 2) the administration,
review or collection of your account; and 3) offering you enhanced or additional products or services.
2. If an account is opened, you will receive a Card Agreement with your card(s). You agree to the terms of this agreement by using the account
or any card, authorizing their use, or making any payment on the account.
3. Rates, fees and terms may change: We have the right to change the account terms (including APRs) in accordance with your Card Agreement.

